                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                               1




Case Number: I01090021                                                                            Page 1 of 1



      Subjects:       [redactedland [redacted] along with additional officials


      ALLEGATIONS OF FALSE STATEMENTSAND FUNDING IRREGLILARITIES - REDACTED                                             :




      On 8 August 2001, the Office of Inspector General was forwarded an email containing allegations from
      [redacted](COMPLAINANT),a professor at [redacted] and PI on NSF grant [redacted]. According to the
      COMPLAINANT, [redacted], along with [redacted] "made false statementsto a federal agency [and engaged
      in] . . . questionable practices regarding NSF funding." The COMPLAINANT sent these allegations after
      [redacted] sent an email to NSF inquiring about a $4,200 travel stipend amendment to NSF grant [redacted],
      requested by the COMPLAINANT, and submitted to the [redacted] Sponsored Research Office and NSF.
      Apparently, the Sponsored Research Office never approved this amendment. Officialsat NSF approved this
      amendment after they were told over the telephone that [redactedl's FastLane system was not operational.
      However, according to [redacted], [redactedI7sFastLanesystem never experienced any difficulties. Whoever
      called NSF (COMPLAINANT or [redacted] officials) is not clear, and not relevant, as NSF withdrew the,
      funding after [redacted] officials so requested.

      This matter arose from substantial disagreements between the COMPLAINANT and [redacted] administration,
      with the COMPLAINANT filing lawsuits and a discriminationcomplaint with the Ofice of Civil Rights at the
      United States Department of Education (OCR-DOE), and [redacted] raising questions about the
      COMPLAINANT'S handling of the NSF grant. [redacted] had earlier written to NSF expressing concern
      about whether the COMPLAINANT'Sactivitiesunder the NSF grant were compliant with NSF requirements,
      and soon after the incident involving the unauthorized amendment, [redacted] wrote to NSF stating that
      [redacted] was suspending all work under the grant and would be returning any unexpended funds. The
      COMPLAINANT'Sallegation about false statementsto NSF is without support and is inextricablyenmeshed
      in the disputes he is pursuing against [redacted] in court and before OCR-DOE, and does not warrant
      investigation by our office.

      As for the COMPLAINANT'Sallegation of "questionable practices regarding NSF funding,"*anexamination
      of the audit workpapers completed by a third party audit firm at the request of OIG-Audit reveals significant
      problems in the financial accounting systems at [redacted],but no evidence of fraud or criminal activity with
      respect to this NSF grant. The auditors came to these conclusions after a site visit, and after reading the
      workpapers, our office (OIGInvestigations) agrees. Accordingly, this case isllosed.




                           Agent                    Attorney                  Supervisor                    AIGI

  Sign 1 date

                                   11                                                               OIG Form 2 (2102)
